No. 20-679

 

 

IN THE

Supreme Court of the United States

MICRON TECHNOLOGY, INC.,

Petitioner,
v.

NORTH STAR INNOVATIONS, INC.,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF IN OPPOSITION OF RESPONDENT,
NORTH STAR INNOVATIONS, INC.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,820 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 17, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
